No. 20-815

In the Supreme Court of the United States
IN RE: TIMOTHY KING, ET AL., PETITIONERS
v.
GRETCHEN WHITMER, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE FOR RESPONSE TO MOTION
The undersigned certifies that on December 28, 2020, she served the Response
to Motion to Consolidate and Expedite Consideration of the Emergency Petition for
Extraordinary Writ of Mandamus and Application for Preliminary Injunction, to Expedite Merits Briefing and Oral Argument in The Event that the Court Grants the
Petition, and to Expedite Consideration of this Motion by mailing same in an envelope
bearing postage fully prepaid, plainly addressed as follows and emailing same to the
email address provided:
Howard Kleinhendler
Counsel of Record for
Petitioner Timothy King
369 Lexington Avenue, 12th Floor
New York, NY 10017
howard@kleinhendler.com
(917) 793-1188

David H. Fink
Counsel of Record for
Respondent City of Detroit
Fink Bressack, PLLC
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
dfink@finkbressack.com
(248) 971-2500
/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

